J
No.

Supreme Court of tlje ®ntteb States!
CHAD ALAN SODERMAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Chad Alan Soderman and submits the attached
appendix pursuant to Supreme Court Rules.
Chad Alan Soderman
Petitioner
44905-013
9595 West Quincy Avenue
Littleton, CO 80123
Date:

19

)
V. . . '

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
DATED 12-21-20

)

/

United States v. Soderman
United States Court of Appeals for the Eighth Circuit
September 25,2020, Submitted; December 21,2020, Filed
No. 19-2879
Reporter
983 F.3d 369 *; 2020 U.S. App. LEXIS 39884 **; 2020 WL 7483576
United States of America, Plaintiff - Appellee v.
Chad Alan Soderman, Defendant - Appellant

Subsequent History: Rehearing denied by, En
banc, Rehearing denied by United States v.
Soderman, 2021 U.S. App. LEXIS 2198 (8th Cir.,
Jan. 26,2021)

Prior History: 1**11 Appeal from United States
District Court for the Southern District of Iowa Council Bluffs.

Counsel: For United States of America, Plaintiff Appellee: Michael Brian Dufly, Richard E.
Rothrock, Assistant U.S. Attorney, U.S. Attorney's
Office, Council Bluffs, 1A.
For Chad Alan Soderman, Defendant - Appellant:
Christopher James Roth, Guy Kriss Weinstein,
Roth & Weinstein, Omaha, NE.
Chad Alan Soderman, Defendant - Appellant, Pro
se, Littleton, CO.

Judges: Before KELLY, WOLLMAN. and
STRAS, Circuit Judges.

Opinion by: WOLLMAN

Opinion
|*3721 WOLLMAN, Circuit Judge.
Chad Alan Soderman entered conditional pleas of
guilty to possession with intent to distribute
controlled substances in violation of 21 U.S.C. §
841(a)(1), (b)(1)(A) and possession of a firearm in
furtherance of drug trafficking in violation of 18
U S.C. § 924(c)(l)(A)(I). On appeal, Soderman
contends that the district court1 erred in denying his
motion to suppress evidence obtained from his
seized vehicle and his statements made during the
traffic stop. We affirm.
I, Background
At approximately 7:30 a.m., July 7, 2018; Iowa
State Trooper Matthew Raes pulled Soderman over
for driving seventeen miles per hour above the
speed limit on Interstate 80 near Council Bluffs,
Iowa; Soderman appeared unkempt, had an
unpleasant body odor, and was 1**2] nervously
tapping his steering wheel, Raes observed two large
duffel bags, aftermarket wires, snacks, and energy
drinks within the vehicle's passenger compartment.
Raes asked Soderman to exit his vehicle and sit in

1 Tbe Honorable Rebecca Goodgame Ebinger. United States District
Judge for the Southern District of Iowa.

Soderman Appendix A1

Page 2 of 5
983 f.3d 369, *372; 2020 U.S. App. LEXIS 39884, **2

the front seat of the patrol car, which Soderman did
after demonstrating some initial reluctance to doing
so. Soderman told Raes that he was traveling from
Colorado to Minnesota to visit his father and dying
stepmother.
While completing a records check, Raes discovered
that Soderman's Colorado driver's [*373] license
had been suspended for unpaid child support.
Soderman disputed the suspension and became
more agitated, repeatedly stating that he had made
the required support payments. Believing that he
had observed indicia of drug trafficking, Raes
called Council Bluffs Police Officer Kaila
Merchant who was trained in drug interdiction and
had worked as a law enforcement officer for
approximately eight years, to obtain a more
experienced assessment Because he could not
lawfully continue to drive with a suspended license,
Soderman called a tow truck company and his
stepmother, demanding that she immediately drive
to Iowa to meet him.
Officer Merchant arrived before the arrival
of [**3] the Soderman-summoned tow truck. Like
Raes, Merchant also observed Soderman's behavior
and appearance and viewed the contents of his
vehicle's passenger compartment.
Because
Soderman was confused about his exact location,
he handed his phone to Merchant so that she could
provide his father with directions. During her
conversation with him, Merchant asked Soderman's
father if Soderman had been involved in drug
trafficking, to which Soderman’s father responded
either, "not for a long time." or, "well not recently."
Although Soderman’s father stated that they had
previously discussed an unspecifieddate visit, he
said that he did not know that Soderman was on his
way to Minnesota at the moment. In response to
Merchant's query, Soderman told her he had had a
problem with drugs in the past but had been clean
for years. He admitted to having smoked marijuana
in the car while in Colorado.

probable cause to believe that there would be
evidence of drug paraphernalia within the car. She
decided to seize the vehicle and requested a second
tow truck. Raes issued Soderman tickets for
speeding and for driving [**4] with a suspended
license. Upon the arrival of the SodermanreqUeste<j tow truck, Merchant informed the driver
that she intended to use a different towing
company, whereupon the tow truck departed.
shortly thereafter—and seventy-five minutes after
the traffic stop began—Sodemian walked away
from the scene before the second tow truck arrived,
leaving his vehicle with Raes and Merchant. The
Merchant-summoned tow' truck arrived and towed
Soderman's car to the impound lot. Merchant
submitted to a state judge the application and the
affidavit needed to obtain a search warrant, but
mistakenly failed to submit the required warrant
itself. Believing that she had obtained a valid
warrant Merchant searched Soderman's vehicle,
discovering methamphetamine, marijuana, a loaded
firearm, magazines and ammunition, and a digital
scale in the trunk.
Arguing that the warrant was invalid, Soderman
moved to suppress the evidence obtained from his
vehicle, as well as the statements that he made
during the traffic stop. Following the district court’s
denial of the motion, Soderman entered conditional
guilty pleas and was sentenced to 180 months’
imprisonment.
II. Discussion

„ We review the denial of a motion to |**5]
suppress de novo but review underlying factual
determinations for clear error, giving 'due weight1
to the inferences of the district court and law
enforcement officials." United States v. Robbins,
682 F.3d 1111, 1115 (8th Cir. 2012) (quoting
United States v, Repioale. 301 F.3d 937, 938 (8th
Cir. 2002)). "We will affirm the denial of a motion
to suppress unless the district court's decision was
unsupported by substantial evidence, w-as based on
Based on her observations and law enforcement an erroneous interpretation of applicable law, or
experience, Merchant concluded that she had was 1*374] clearly mistaken in light of the entire
record.'’ United States v. Murillo-Salgado. 854 F.3d

Soderman Appendix A2

!

/
Page 3 of 5
983 F.3d 369, *374; 2020 U.S. App. LEXIS 39884, **5

407 414 (8th Cir 20173 (citing United States v.
Woods. 829 F.3d 675, 679 (8th Cir. 2016)). We
may affirm the denial of a motion to suppress on
any ground that the record supports, hf
A. Traffic Stop
Soderman first argues that Raes unlawfully
extended the initially valid traffic stop in violation
of Rodriguez v. United States. 575 U.S. 348, 135 S.
Ct. 1609, 191 L. Ed. 2d 492 (2015), thereby giving
Merchant time to arrive on the scene, develop
probable cause, and seize the vehicle.
Because it is subject to Fourth Amendment
protections against unreasonable searches and
seizures, a traffic stop must be supported by either
reasonable suspicion or probable cause. United
States v. Chart!er. 772 F.3d 539, 543 (8th Cir.
2014). A constitutionally permissible traffic stop
becomes unlawful when its length exceeds the time
needed to attend to the stop's "mission” and "related
safety concerns." Rodriguez. 575 U.S. at 354
(internal citations omitted). An officer may
lawfully continue a traffic stop until "tasks tied to
the traffic infraction [**6J are—or reasonably
should have been—completed." Id. When
complications arise "in Ganying out the trafficrelated purposes of the stop, . . . police may
reasonably detain a driver for a longer duration than
when a stop is strictly routine." United States v.
Olivera-Mendez. 484 F.3d 505, 510 (8lh Cir. 2007).
To address related safety concerns, an officer may
take actions to "ensurfe] that vehicles on the road
are operated safely and responsibly," including
checking the driver's license. Rodriguez. 575 U.S.
at 355. But without reasonable suspicion, an officer
may not conduct unrelated checks that extend the
stop beyond the time reasonably required to
complete its original mission. Id.

Garzo. 752 F.3d 1161, 1164 (8th Cir. 2014)
(concluding that when none of the occupants of a
vehicle were licensed to drive, the officer was
permitted "to engage in a community caretaking
function of safely moving the vehicle and its
occupants from the side of the road"). Raes
expressed to Soderman his concern about the
dangerousness of the vehicle's road-shoulder |**7|
placement in light of the interstate's curvature at
that point. The confluence of Soderman’s decision
to call a tow truck, Merchant’s arrival, and, as
discussed below, her development of probable
cause to seize the vehicle vitiates any claim that the
st0p was unlawfully prolonged,
Contrary to Soderman’s arguments, United States v.
Peraiez, 526 F.3d 1115 (8th Cir. 2008), is
inapposite. In Peraiez, an officer found nothing
"unusual or out of place" with the drivers license or
vehicle registration; the stop was delayed entirely
because of the officer’s drug-interdiction
questioning, jd at 1120. Here, unlike in Peraiez,
the length of the stop was directly related to the
community caretaking function of ensuring the safe
removal of the vehicle and not to unrelated
questioning or to the awaiting of another officer's
arrival. Cf. United States v, Davis, 943 F.3d 1129,
1133 (8th Cir. 2019) ("This stop is easily
distinguishable [from Peraiez! and involves
traditional bases of reasonable suspicion justifying
an extension.").
B Vehicle Seizure & Search

Soderman next argues that Merchant lacked
probable cause to search and seize (*3751 the
vehicle and that the evidence obtained from within
the vehicle should therefore have been suppressed,
In the absence of a judicially authorized warrant,
address
whether
Merchant
had
we
independent |**8( probable cause to conduct a
Raes's discovery that Soderman's driver’s license warrantless search of Soderman's vehicle under the
had been suspended justifiably extended the lawful automobile exception.
scope of the traffic stop because of Soderman's
legal inability to remove the vehicle from the scene Although a warrantless search usually constitutes a
and the consequential need for a licensed driver or per se Fourth Amendment violation, the automobile
a tow* truck to do so. See United States v. Ovando- exception to the Fourth Amendment's warrant

Soderman Appendix A3

(

)

'

Page 4 of S
983 F.3d 369, *375; 2020 U.S. App. LEXIS 39884, **8

requirement permits the warrantless search or
seizure of a vehicle by officers possessing probable
cause to do so. Chambers v. Maronev. 399 U.S. 42,
51-52, 90 S. Ct. 1975, 26 L. Ed. 2d 419 (1970).
"Probable cause exists when, given the totality of
the circumstances, a reasonable person could
believe there is a fair probability that contraband or
evidence of a crime would be found in a particular
place." Murillo-Salgado. 854 F.3d at 418 (quoting
United States v. Wells, 347 F.3d 280,287 (8th Cir.
2003)). A combination of otherwise innocent
factors may create probable cause, Illinois v. Gates,
462 U.S. 213, 243 n.13, 103 S. Ct. 2317, 76L. Ed.
2d 527 (1983). Because B[p]robablc cause is a
practical and common-sensical standard," "an
officer may draw' inferences based on his own
experience” to determine whether probable cause
exists. Murillo-Salgado. 854 F.3d at 418 (internal
quotation marks and citations omitted).

Merchant developed probable cause to believe
Soderman’s car contained evidence of drug
trafficking while Raes was addressing the issue of
Soderman’s suspended license and related vehicle
removal. As set forth in her police report, Merchant
saw the aftermarket wires in Soderman’s vehicle,
from which she inferred that the vehicle might have
been manipulated |**9]
to conceal drugs,
Merchant also saw Soderman’s snacks and energy
drinks, which, in combination with his disheveled
appearance and malodorous state, indicated that lie
might have been driving for a long period of time
without stopping for food or a shower. See United
States v. Mayo. 627 F.3d 709, 711, 714 (8th Cir.
2010) (police had probable cause to search vehicle
in part because its "lived-in" look could indicate the
"’hard travel’ common to drug couriers who drive
for long periods without stopping").

to search vehicle in part because of defendants
nervousness). Lacking a valid license, Soderman
stated that he intended to tow his vehicle from
Council Bluffs to an unspecified location near the
Minnesota-lowa border, where he anticipated being
picked up by his father and his accompanying
stepmother, -who Soderman said was dying and who
had been released from the hospital three days
prior. Soderman also insisted on not being
separated 1**10] from his vehicle. Moreover,
Soderman's father expressed surprise that
Soderman was en route and acknowledged that
Soderman had a history of drug trafficking. See.
United States v. Hill. 386 F.3d 855, 858 (8th Cir.
2004) (police had probable cause to search vehicle
in part because of defendant's "reputation for
engaging in drug activity"); cf. Mayo, 627 F.3d at
714 (police had probable cause to search vehicle in
part because of defendants' inconsistent travel
stories). The cash that Soderman carried w'as less
than thc amount wc havc foun<j sufficient to
establish probable cause, but when considered with
factors uoted above, his bulging wallet
contributed |*376] to the circumstances giving
rise to probable cause.
Thc automobile exception may apply even when
there is little to no chance that the vehicle will be
moved or its contents destroyed. Cady v.
Dombfowski, 413 U.S. 433, 441-42, 93 S. CL
2523,37 L. Ed. 2d 706 (1973). Officers armed with
probable cause "may conduct a warrantless search
of the vehicle, even after it has been impounded
and is in police custody.” United States v. Bettis.
946 F.3d 1024, 1030 (8th Cir. 2020) (quoting
Michigan v. Thomas. 458 U.S. 259, 261, 102 S. CL
3079, 73 L. Ed. 2d 750 (1982) (per curiam)). The
automobile exception continues to apply to
impounded vehicles when an immediate search
could have been conducted on the scene. Brewer v.
^Volff 529 F 2d 787 792 (8th Cir 1976)
(jnterpreling Texas v. White. 423 U,S. 67, 96 S. Ct.
304,46 L. Ed. 2d 209(1975)).

Soderman’s conduct during the stop also
contributed to Merchant's belief that there was
probable cause to search the vehicle. The dashcam
recording from Raes's patrol car indicates that
throughout thc stop Soderman was agitated,
nervous, breathing heavily, and confused about his We therefore reject Soderman's argument that, even
location. See id. at 714 (police had probable cause if she had probable cause to seize Soderman's car,

Soderman Appendix A4

)

(

Page 5 of 5
983 F.3d 369, *376; 2020 U.S. App. LEXIS 39884, **10

Merchant [**l 1 ] was required to obtain a warrant
prior to searching the impounded vehicle. See
Bettis. 946 F.3d at 1030. Merchant intended to
obtain confirmation from a magistrate that she had
probable cause prior to conducting a search. The
judge confirmed her probable cause determination
by signing her application and affidavit,
notwithstanding the absence of a warrant. Practical
considerations supported Merchant’s decision to
move the vehicle prior to the search. Merchant's
dashcam recordings show numerous semi-trucks
and passenger vehicles passing by the three
shoulder-parked vehicles during the stop. See id.
(noting that the officers were not required to obtain
a warrant before properly "conducting] a more
thorough search than flashlights on the shoulder of
a busy highway allowed"). We therefore agree with
the district court that the automobile exception to
the warrant requirement permitted Merchant to
conduct a warrantless search of Soderman's car
following its removal from the scene.
C. Miranda Warning
Soderman next argues that he was subjected to a
custodial interrogation during the traffic stop, that
he never received a Miranda warning, and that his
statements made during the stop should thus be
suppressed.

custody during the roadside questioning that is
permitted during a traffic stop. Berkemer v.
McCarty. 468 U.S. 420, 439-40, 104 S. Ct. 3138,
82 L. Ed. 2d 317 (1984).
We conclude that Soderman was not in custody
during the traffic stop. See United States v.
Hoileman. 743 F.3d 1152, 1159 (8th Cir. 2014)
(listing factors—like whether the suspect was free
to move and to leave, whether the officers used
deceptive stratagems, and whether the suspect was
under arrest—to consider when determining
|*377| whether a person is in custody (quoting
United States v. Griffin. 922 F.2d 1343, 1349 (8lh
Cir. 1990)). Although Soderman was temporarily
detained, only two officers were present during the
stop. See Berkemer. 468 U.S. at 438-39 ("The fact
that the detained motorist typically is confronted by
only one or at most two policemen further mutes
his sense |**J3] of vulnerability "). And although
Raes asked Soderman to sit in the patrol car during
the slop, Soderman was neither handcuffed nor
forced to sit in the back seat. He thus retained a
degree of free movement, as reflected by his
frequent gestures, body movement, and statements,
and was not constrained to the degree associated
with a formal arrest. See United States v. Jones.
269 F.3d 919, 924 (8th Cir. 2001) ("(A) police
officer, incident to investigating a lawful traffic
stop, may . . . request that the driver wait in the
patrol car...."). Throughout the stop, Raes offered
to take Soderman to a gas station and at no time
said that Soderman would continue to be detained
after the stop concluded. Although Merchant
suggested that she would call a drug dog, Soderman
was free to leave once the traffic tickets were
issued. The district court thus properly denied the
motion to suppress his statements.

Miranda 1**121 warnings are required only when a
person is in custody, because they are intended to
"protect the individual against the coercive nature
of custodial interrogation." United States v.
Thomas. 664 F.3d 217, 222 (8th Cir. 2011)
(quoting J.D.B. v. North Carolina. 564 U.S. 261,
270, 131 S. Ct. 2394, 180 L. Ed. 2d 310 (2011)).
"Whether a suspect is 'in custody' is an objective
inquiry," where we assess both "the circumstances
surrounding the interrogation" and "whether a
reasonable person would have felt at liberty to end The judgment is affirmed.
the interrogation and leave.” Id, (citing J.D.B.. 564
U.S. at 270). A stop is not custodial if it does not
Knd offloenment
constrain the defendant "to the degree associated
with an arrest" United States v. Pelavo-Ruelas. 345
F.3d 589, 593 (8th Cir. 2003). Although stopped
drivers are detained, they are generally not in

Soderman Appendix A5

.J
APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
ENTERED 8-20-19

\

{

J
Case l:18-crO0044-RGE-HCA Document 56 Filed 08/20/19 Page 1 of 7
AO 24SB (Rev. 03/19)

judgment in n Criminal Case

\\

Sheet 1

United States District Court
SOUTHERN DISTRICT OF IOWA

)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
Chad Alan Soderman

JUDGMENT IN A CRIMINAL CASE

Case Number: 1:18-CR-00044-001

USM Number: 44905-013
Christopher J. Roth
Defendant's Attorney

THE DEFENDANT:
^pleaded guilty to coimt(s)

One and Three of the Indictment filed on July 31,2018.

□ pleaded nolo contendere to count(s)
which was accepted by the court.
□ was found guilty on countfs)
after a plea of not gui tty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Q

[ 21 U.S.C § 841(a)(1),

Offense Ended

Nature of Offense
Possession with Intent to Distribute at Least 50 Grams of •

T 07/07/2018

Conut
One

Methamphetamine and Marijuana

841(b)(1)(A)

T
18 U.S.C. § 924(c)(1)(A)(i)

07/07/2018

Possession of a Firearm in Furtherance of Drug Trafficking

Three

Y,
L

n See additional connt(s) on page 2
The defendant is sentenced as provided in pages 2 through 7
Sentencing Reform Act of 1984.

of this judgment The sentence is imposed pursuant to the

□ The defendant has been found not guilty on count(s)
S^Count(s)

Two

Ilf is

□ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days ofany change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
August 20, 2019
Date of Imposition of Judgment

Signature of Judge

Rebecca Goodgame Ebinger, U S. District Judge
Title ofJudge
Name ofJudge
August 20, 2019
Date

Soderman Appendix B1

(

Case 1:18 cr-00044-RGE-HCA Document 56 Filed 08/20719 Page 2 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet t — Imprisonment
vi
Judgment Page: 2 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1.-18-CR-00044-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:

120 months as to Count One, plus 60 months as to Count Three of the Indictment filed on July 31, 2018, to be served
consecutively, for a total of 180 months.

fpf The court makes the following recommendations to the Bureau of Prisons:

That the defendant be placed at FCI Sandstone. Additionally, that he be afforded the opportunity to participate in vocational
training related to HVAC and/or carpentry, as well as the 500-hour Residential Drug Abuse Program.
Sf The defendant is remanded to the custody of the United States Marshal.
□ The defendant is remanded to the custody of the United States Marshal for surrender to the ICE detainer,
0 The defendant shall surrender to the United States Marshal for tills district:
□ a.m.

□ at

□ p.m.

on --------------------------------------------

□ as notified by the United States Marshal.
O The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before

on

□ as notified by the United States Marshal.
0 as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

to

, with a certified copy of this judgment .

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Soderman Appendix B2

\
(
!
Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 3 of 7
AO 245B (Rev. 03/19) Judgment m aCriminal Caw
Sheet 3 — Supervised Release
vl
Judgment Page: 3 oF7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:18-CR-00044-001

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
Five years as to each of Counts One and Three of the Indictment filed on July 31, 2018, to be served concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime,
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by (lie court.
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, /check Ifapplicable)
O You must make restitution in accordance with 18 U.S.C, §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, /check ifapplicable)
&You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, el seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or Were convicted of a qualifying offense, (cheek Ifapplicable)
O You must participate in an approved program for domestic violence, (check ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Soderman Appendix B3

f
\
Case 1:18-cr-00044-RG E-HCA Document 56 Filed 08/20719 Page 4 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 3 A — Supervised Release
v!
Judgment Page: 4 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:18-CR-00044-001

STANDARD CONDITIONS OF SUPERVISION
As part ofvour supervised release, you must comply with the following .standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
].

2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72. hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different lime
frame.
.
After initially reporting to the probation office, you wifi receive instructions from the court or the probation officer about how and
when vou must report to the probation officer, and you must report to the probation officer as instructed,
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you musi notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions ofyour supervision that he or she observes in plain view,
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or lasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and con fi rm that y ou have noti Tied the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.aov.
Date

Defendant s Signature

Soderman Appendix B4

;
(
Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 5 of 7
AO 24JB (Rev, 03/19) Judgment in a Criminal Case
Sheet 3D — Supervised Release

vt

Judgment Page: 5 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 118-CR-00044-001

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a cognitive behavioral treatment program, which may include journaling and other curriculum
requirements, as directed by the U.S. Probation Officer.
You must submit to a mental health evaluation, if treatment is recommended, you must participate in an approved
treatment program and abide by all supplemental conditions of treatment Participation may include inpatient/outpatient
treatment and/or compliance with a medication regimen. You will contribute to the costs of Services rendered (co-payment)
based on ability to pay or availability of third-party payment
You must participate in a program of testing and/or treatment for substance abuse, as directed by the Probation Officer,
until such time as the defendant is released from the program by the Probation Office. At the direction of the probation
office, you must receive a substance abuse evaluation and participate in inpatient and/or outpatient treatment, as
recommended. Participation may also include compliance with a medication regimen. You will contribute to the costs of
services rendered (co-payment) based on ability to pay or availability of third-party payment You must not use alcohol
and/or other intoxicants during the course of supervision.
You must comply with the terms and conditions ordered by the Department of Health and Human Services for the State of
Colorado, in case identification number 03938448457A. requiring payments toward child support arrears for M B.
You will submit to a search of your person, property, residence, adjacent structures, office, vehicle, papers, computers (as
defined in 18 U.S.C. § 1030(e)(1)), and other electronic communications or data storage devices or media, conducted by a
U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. You must warn any other residents or
occupants that the premises and/or vehicle may be subject to searches pursuant to this condition. An officer may conduct
a search pursuant to this condition only when reasonable suspicion exists that you have violated a condition of your
release and/or that the area(s) or item(s) to be searched contain evidence of this violation or contain contraband. Any
search must be conducted at a reasonable time and in a reasonable manner. This condition may be invoked with or
without the assistance of law enforcement, including the U.S. Marshals Service.

Soderman Appendix B5

>

Case l:18-cr-00044-RGE-HCA Document 56

J
Filed 08/20719

Page 6 of 7

AO 245ft (Rev. 03/19) Judgment in a Crimmnt Cose
Sheet 5 — Criminal Monetary Pcnattics
vl

Judgment Page: 6 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:16-CR-00044-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal tnonetaiy penalties under the schedule of payments on Sheet 6.

□ Pursuant to 18 U.S.C. § 3573, upon the motion of the government, the Court hereby remits the defendant's Special Penalty
Assessment; the ice is waived and no payment is required.
Restitution
Fine
Assessment
JVTA Assessment *
$0.00
$ 0.00
TOTALS
S 200.00

so.oo

. An A mended Judgment in a Criminal Case rAO 24*0 willbe entered

O The determination of restitution is deferred until
after such determination.

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Priority nr Percentage

Total l-ioss**

Name of Payee

so.oo

TOTALS

$0.00

□

Restitution amount ordered pursuant to plea agreement $

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that;
□ the interest requirement is waived for the
□ the interest requirement for the

□

fine

□ fine

□ restitution.

□ restitution is modified as follows:

♦ Justice for Victims of Trafficking Act of201S, Pub; L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110,110A. and 113A ofTitle 18 for offenses committed on or
after September 13. 1994, but before Aprit 23, 1996.

Soderman Appendix B6

(
Case l:l8-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 7 of 7
AO 245B (Rev, 03/19) Judgment m a Criminal Case
Sheet 6 — Schedule of Payments
v\
Judgment Page: 7 of?
DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:18-CR-00044-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

due immediately^ balance due

Iff Lump sum payment Of S 200.00
□

not later than
in accordance

■ or

□ C,

□ D,

□

E. or

gif F below; or
□ C,

□ D, or

DP below); or

B

□

Payment to begin immediately (may be combined with

C

□

over a period of
(c.g., weekly, monthly, quarterly) installments of S
Payment in equal
(eg-, 30 or 60 flays) after the date of this judgment; or
ft*.g., months or years), to commence

D

f~|

over a period of
(c.g.. weekly, monthly, quarterly) installments of $
Payment in equal
(c.g.. 30 or 60 days) after release from imprisonment to a
(c.g,. months ar rears/, to commence
term of supervision; or

E

□

(e.g . 30 or 60 days) after release from
Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

|*f Special instructions regarding the payment of criminal monetary penalties:
All criminal monetary payments are to be made to the Cleric's Office, U.S. District Court, P.O. Box 9344,
Des Moines, IA, 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office:

Unless the court has expressly ordered otherwise, if this^udgment imposes imprisonment payment (Tentedmonetary |ienalties_is duc during
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co.-Defendaiit Names and Case Numbers (Including defendant nnmtwrj^ Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

Die defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

Ilf The defendant shall forfeit the defendant’s interest in the following property to the United States:

A loaded, Kel-Tec, P11, nine-millimeter pistol (serial number AP365) and ammunition, as listed in the Indictment filed
on July 31, 2018, and agreed to in the written plea agreement.
Payments shall be applied in the following order: (1) assessment^(2) restitution principal, (3) restitution interest, (4) fine principal,(5) fine

Soderman Appendix B7

r~

lv

APPENDIX C
ORDER OF THE COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
DATED 1-26-21

. )

v.

}

(

United States v. Soderman
United States Court of Appeals for the E ighth Circuit
January 26,2021, Decided
No: 19-2879
Reporter
2021 IJ.S. App. LEXIS 2198 *
United States of America, Appellee v. Chad Alan
Soderman, Appellant

The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
January 26,2021

Prior History: |*1) Appeal from U.S. District
Court for the Southern District of Iowa * Council
Bluffs, (1:1 g-cr-00044-RGE-l).

End of Document

United States v. Soderman, 983 F.3d 369, 2020
U.S. App. LEXIS 39884 (8th Cir. Iowa, Dec. 21,
2020)

Counsel: For United States of America, PlaintiffAppellee: Michael Brian Duffy, Assistant U.S.
Attorney, 'Richard E. Rothrock, Assistant U.S.
Attorney, U.S. Attorney’s Office, Council Bluffs,
IA.
For Chad Alan Soderman, Defendant - Appellant:
Christopher James Roth, Guy Kriss Weinstein,
Roth & Weinstein, Omaha, NE.
Chad Alan Soderman, Defendant - Appellant, Pro
se, Littleton, CO.

Opinion

ORDER

Soderman Appendix C1

v...
APPENDIX D
USDC ORDER DENYING MOTION TO SUPPRESS
ENTERED 1-17-19

•<

\

f

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
WESTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

No. 1:18-cr-00044-RGE-H C A

v.

ORDER DENYING DEFENDANT’S
MOTION TO SUPPRESS EVIDENCE

CHAD ALLEN SODERMAN.
Defendant.
I.

INTRODUCTION
An Iowa state trooper pulled over Defendant Chad Alan Soderman for speeding.

During the traffic stop, the trooper discovered Soderman was driving with a suspended license.
As the trooper and another responding officer arranged for Soderman Ss car to be towed, they
developed suspicion Soderman was trafficking drugs. Soderman’s car was towed and impounded.
The officer prepared a warrant application to search Soderman’s car and a judge signed it.
The officer searched the car. Later, the officer discovered the judge had signed only the application
for a warrant and not an actual warrant. Soderman moves to suppress the statements he made
during the stop and the contraband found in his car. For the reasons set forth below, the Court
denies Soderman’s motion.
II.

BACKGROUND
Before the Court is Soderman’s Motion to Suppress. ECF No. 24. The matter came before

the Court for hearing on December 17, 2018. Hr’g Mins. Def.’s Mot Suppress, ECF No. 34.
Attorney Christopher I. Roth appeared on behalf of Soderman. Id. Assistant United States Attorney
Michael Brian Duffy appeared on behalf of the Government. Id. The Court heard the testimony
of Iowa State Trooper Matthew Raes, Council Bluffs Police Officer Kaila Merchant, and

1

Soderman Appendix D1

/

v
Case l:18-cr-00044-RGE-HCA

;

Document 38 Filed 01/17/19 Page 2 of 14

Iowa District Associate Judge Charles Fagan. Id.; see also Witness List, ECF No. 34-2. Hie Court
received exhibits from both parties, including video of the traffic stop submitted by the
Government. Ex. List, ECF No. 34-1; Gov’t Exs. 1-6, ECF Nos.-36, 36-1 to 36-5; Dcf.’s Ex. 101,
ECF No. 37-1.
The Court finds the following facts by a preponderance of the evidence for purpose of
considering Soderman’s motion. See United States v. Matlock, 415 U.S. 164, 177 n.14 (1974);
accord United States v. Long, 797 F.3d 558, 570 (8th Cir. 2015).
Around 7:30 a.m. on Saturday, July 7, 2018, Soderman was pulled over by Iowa State
Trooper Matthew Raes for going 72 miles per hour in a 55-miles-per-hour zone on Interstate 80 in
Council Bluffs. As Raes approached the vehicle, Raes noticed Soderman was tapping his steering
wheel nervously. Raes asked Soderman to step out of his car and sit in the patrol car while Raes
checked Soderman’s license. Soderman told Raes he was driving from Colorado to Minnesota to
visit his father and terminally ill stepmother. Raes observed Soderman had an unpleasant odor,
was unkempt, and had several snacks and energy drinks in his car. He also noticed two large duffel
bags and aftermarket wires on the back seat and floor of the car,
Raes completed a records check on Soderman and discovered his license was suspended
for unpaid child support Soderman told Raes he was cun-ent on his child support payments and
his license should not be suspended. Soderman showed Raes a bank statement on His phone to
demonstrate his child support obligations were current. Raes informed Soderman he could not
drive with a suspended license, his car would have to be towed and impounded, and Soderman
could call the Colorado DMV on Monday to inquire about his suspended license. Raes told
Soderman he could call a tow truck for him and drive him to a gas station nearby. Soderman
expressed to Raes that he wished to arrange the towing himself and did not want Raes to arrange
it for him.
2

Soderman Appendix D2

-f

Case l:18-cr*00044-RGE-HCA Document 38 Filed 01/17719 Page 3 of 14

Raes said he was going to step out of the car and speak to his supervisor. Raes instructed
Soderman to stay in his patrol car. Soderman asked Raes if he was detained. Raes responded:
“Yeah ... [yjou’re operating without a Driver’s License. You can go to jail for it, if you’d rather
go to jail.” When Raes stepped away from the vehicle, Soderman called his stepmother in
Minnesota and urgently implored her to come to Iowa to pick him up. Soderman then called a local
tow truck company and asked if they could tow his car to the border of Iowa and Minnesota, nearly
300 miles away. When Raes returned to his patrol car, Soderman told Raes he would travel as a
passenger in the tow truck he called and would meet his parents on the road as they traveled from
Minnesota.
Raes had worked as an Iowa state trooper for about three years at the time he pulled
Soderman over. Raes testified he wanted to discuss what he perceived to be indicators of
drug activity with a more experienced officer, Raes therefore called Council Bluffs Police Officer
Kaila Merchant, who Raes knew had experience with narcotics trafficking, and asked her to assist.
About twenty minutes after the initial stop, Merchant arrived. Merchant had worked as a law
enforcement officer in New Hampshire for seven years and had joined the Council Bluffs
Police Department about one year prior to the time of this traffic stop. In New Hampshire,
Merchant had received training in drug interdiction.
Soderman told Merchant a tow truck was on its way. He said he planned to travel with the
tow truck and then meet his father and stepmother on the way to Minnesota. Soderman began to
describe his location to his father over the phone. Soderman stated, incorrectly, that his father
could drive south on Interstate 35 from Minnesota to reach Council Bluffs. Merchant offered to
speak to Soderman’s father and give him directions. Soderman gave his phone to Merchant
Soderman’s father told Merchant he did not know his son was on his way to visit. Merchant asked
Soderman’s father if Soderman had a history of drug trafficking. Soderman’s father responded:
3

Soderman Appendix D3

r

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01717/19 Page 4 of 14

“Well, not recently.’’ Merchant told Soderman’s father to delay leaving Minnesota until she further
assessed the situation. She said she would call Soderman’s father back in a few minutes.
Merchant asked Sodennan if he was transporting drugs. Soderman said he was not.
Soderman told Merchant he had a problem with drugs in the past, but he had been clean for years.
Soderman denied consent for Merchant to search his car. He said he was embarrassed about the
contents of his car and did not want Merchant to see his belongings. He also told Merchant a search
would be a violation of his rights. Merchant told Soderman they were in a “tough spot” because
she perceived “red flags.” Merchant told Soderman she had probable cause to apply for a search
warrant to search his car and that she was going to call her sergeant for permission to do so.
Merchant also told Soderman she would call for a dog to sniff his car. Soderman told Raes that he
had recently smoked marijuana in his car and was concerned the dog would detect it. Merchant
received permission from her supervisor to seize Soderman’s car and to apply fora search warrant.
Soderman left the scene. The entire stop lasted about one hour and fifteen minutes.
Merchant prepared an application for a search warrant. Although Merchant had applied for
search warrants in New Hampshire, this application was the first she had completed in Council
Bluffs. Merchant prepared the application from a template she downloaded from the police
department’s shared drive. The template lacked a warrant page. The application included an
affidavit in support of the search warrant, in which Merchant listed reasons for finding
probable cause, and a statement in which Merchant named the place to be searched.
See Gov't Ex, 2, ECF No. 36-1 at 1-5. The statement naming the place to be searched included
the license plate number and vehicle identification number of Soderman’s car. Id. at 6-7. The
warrant application also included an attachment listing the property to be seized. Id. at 8.
Merchant presented the warrant application to the Honorable Charles D. Fagan,
District Associate Judge for the Fourth Judicial District of Iowa. Because it was outside normal
4

Soderman Appendix D4

T

(
'\.

t

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 5 of 14

business hours, Merchant presented the warrant application to Judge Fagan at his home. Judge
Fagan reviewed the application and signed the affidavit in support of probable cause and the
statement of the place to be searched. Id. at 5, 7. Judge Fagan testified he found the warrant
application was supported by probable cause. He did not realize the warrant itself was missing.
After obtaining Judge Fagan’s signature, Merchant searched Soderman’s car. The search revealed
mcthamphetaminc, a loaded pistol, magazines and ammunition, and a digital scale. Id. at 10-11.
Raes found Soderman at a nearby motel and arrested him.
A federal grand jury later indicted Sodemtan on three counts: 1) possession with
intent to distribute a controlled substance in violation of 21 U.S.C. § 841(a)(1), (b)(1)(A);
2) prohibited person in possession of a firearm in violation of 18 U.S.C. §§ 922(g)(1),(3) and
924(a)(2); and 3) possession of a firearm in furtherance of drug trafficking in violation of
18 U.S.C. § 924(c)(1XA). Redacted Indictment, ECF No. 2.
Ill,

LEGAL STANDARDS
Soderman moves to suppress evidence obtained from the traffic stop and the seizure and

search of his vehicle as W'ell as the statements he made during the traffic stop. ECF No. 24,
Soderman argues the seizure and search of his vehicle violated his rights under the
Fourth Amendment and the officer’s questioning violated his rights under the Fifth Amendment.
7</,;Def.’s Br. Supp. Def.’s Mot. Suppress, ECF No. 24-1.
A.

Fourth Amendment

The Fourth Amendment to the United Stales Constitution provides:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

5

Soderman Appendix P5

-/■

Case l:I8-cr-00044-RGE-HCA Document 38 Filed 01/1T/19 Page 6 of 14

U.S. Const, amend. IV. “fSjubject only to a few specifically established and well delineated
exceptions,” searches and seizures “without prior approval by judge or magistrate, are per se
unreasonable under the Fourth Amendment.” Minnesota v. Dickerson, 508 U S, 366, 372 (1993)
(quoting Katz v. United States, 389 U .S. 347, 357 (1967)). Among those exceptions are temporary
seizures of a person during a traffic stop when there is reasonable suspicion or probable cause, and
the search and seizure of an automobi le when there is probable cause.
A traffic stop is a seizure subject to the protections of the Fourth Amendment.
Delaware v. Prouse, 440 U.S. 648, 653 (1979). “[A] traffic stop is reasonable if it is supported
by either probable cause or an articulable and reasonable suspicion that a traffic
violation has occurred.” United States v. Cbartier, 772 F.3d 539, 543 (8th Cir. 2014)
(quoting United States v. Washington, 455 F.3d 824, 826 (8tb Cir. 2006)). “Reasonable suspicion
exists when ah ‘officer is aware of “particularized, objective facts, which, taken together
with rational inferences from those facts, reasonably warrant suspicion that a crime
is being committed.

United States v. Givens, 763 F.3d 987, 989 (8th Cir. 2014)

(quoting United States v. Hollins, 685 F.3d 703, 706 (8th Cir. 2012)).
Under the automobile exception, a warrantless search of an automobile is permitted
when there is probable cause to believe the automobile contains evidence of criminal activity.
Carroll v. United States, 267 U.S. 132, 158-59 (1925); accord United States v. Davis,
569 F.3d 813, 817—18 (8th Cir. 2009). “Probable cause exists when, given the totality of the
circumstances, a reasonable person could believe there is a fair probability that contraband
or evidence of a crime would be found in a particular place.” United States v. Murilld-Salgado,
854 F.3d 407, 418 (8th Cir. 2017) (quoting United States v. Wells, 347 F.3d 280, 287
(8th Cir. 2003)).

6

Soderman Appendix P6

!
Case l:18-cr-00044-RGE-HCA Document 38 Filed OVTrfiS Page 7 of 14

B.

Fifth Amendment

The Fifth Amendment to the United States Constitution provides: “No person . , shall be
compelled in any criminal case to be a witness against himself.” U.S. Const, amend. V;
“[T]he prosecution may not use statements ... stemming from custodial interrogation of the
defendant unless it" has warned the defendant “that he has a right to remain silent, that any
statement he does make may be used as evidence against him, and that he has a right to the presence
of an attorney.” Miranda v. Arizona, 384 U.S. 436, 444 (1966). A suspect is in custody when
“there is a ‘formal arrest or restraint on freedom of movement’ of the degree associated with a
formal arrest.” California v. Beheier, 463 U.S, 1121, 1125 (1983) (quoting Oregon »'• Mathiason,
429 U.S. 492,495 (1977)).
IV.

DISCUSSION
Soderman asserts the contraband found in his car should be suppressed because his car was

seized and searched in violation of the Fourth Amendment. Specifically, he argues officers
impermissibly extended the traffic stop, and the impermissible extension resulted in the seizure
and search of this car. ECF No. 24-1 at 4-8. Soderman also asserts his statements during the traffic
stop should be suppressed because he xvas not read his Miranda rights and the statements’
admission at trial would violate the Fifth Amendment. Id. at 8—10.
First, the Court finds the officers validly extended the stop on reasonable suspicion of
additional criminal activity. Second, the Court finds there was probable cause lor Merchant to
seize and search Soderman*s car, making the search lawful under the automobile exception to the
Fourth Amendment’s warrant requirement. Finally, the Court finds Soderman was not in custody
and Miranda warnings were not necessary. Thus, the Court denies the Soderman’s motion to
suppress.

7

Soderman Appendix D7

{

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 8 of 14

A.

Fourth Amendmen t: Search and Seizure of Vehicle
1.

The extension of the traffic stop

Soderman argues Raes and M erchant did not have reasonable suspicion to extend the traffic
stop beyond its initial purpose. ECF No. 24-1 at 4. Without reasonable suspicion or probable cause,
Soderman contends, a traffic stop is not reasonable and therefore is a violation of the Fourth
Amendment. Id. at 5; See Charter, 772 F.3d at 543. The Government argues the purpose
of the stop legitimately shifted from addressing a speeding violation to addressing a suspended
license to investigating suspected drug trafficking. Gov’t’s Br. Resp. Def.’s Mot. Suppress 5-6,
ECF No. 32,
A traffic stop constitutes a seizure and must be supported by probable cause or reasonable
suspicion. Charter, 772 F,3d at 543. Authority for a traffic stop ends when matters connected to
the traffic stop are completed. Rodrigue? v. United States, 135 S. Ct. 1609, 1614 (2015). Running
a driver’s license for outstanding warrants is incident to an ordinary' traffic stop. Id. at 1615;
see also United States v. Jones, 269 F.3d 919,924 (8th Cir. 2001) (“[A] police officer, incident to
investigating a lawful traffic stop, may request the driver’s license and registration ... [and, among
other things, may] request that the driver wait in the patrol car.”), “|T]he tolerable duration of
police inquiries in die traffic-stop context is determined by the seizure's ‘mission’ — to address
the traffic violation that warranted the stop, and attend to related safety concerns.” Rodriguez,
135 S. Ct. at 1614 (citation omitted). An “officer may ask the detainee a moderate number of
questions... to try to obtain information confirming or dispelling the officer’s suspicions.”
Berkcmer v. McCarty, 468 U.S. 420, 439 (1984). Safety' checks or investigations unrelated
to the initial reason for the traffic stop may not prolong the stop, unless the officer has
reasonable suspicion “ordinarily demanded to justify detaining an individual.” Id. at 1615;
see also Illinois v. Caballes, 543 U S 405,408 (2005).
8

Soderman Appendix D8

/

Case l:18-crT)0044-RGE-HCA Document 38 Filed 01/17/19 Page 9 of 14

Here, the traffic stop lasted over one hour. Although one hour is a significant amount
of time for a traffic stop, the “mission” of the stop evolved over its duration. See Rodriguez.
135 S. Ct. at 1614. The initial purpose of the traffic stop was to address a speeding violation. After
Raes completed the records check on Soderman’s license, the stop’s purpose shifted to dealing
with Soderman’s suspended license. And while the officers discussed Soderman’s suspended
license and arranged for his car to be towed, they developed a reasonable, articulable suspicion of
drug trafficking. See Givens, 763 F.3d at 989.
Notably. Soderman's father indicated to Merchant that Soderman had been involved in
drug trafficking in the past. Merchant testified to other reasons for her suspicion of drug trafficking,
which included: Soderman’s nervousness, his large duffel bags, his dirty and disheveled
appearance, his father not knowing that Soderman was on his w ay to visit, the highly caffeinated
beverages in his car, his admission about his use of “hard drugs” in the past, his insistent
requests to smoke a cigarette, the large amount of cash in his wallet, and his reporting that he made
$50.00 an hour as a maintenance worker. See Merchant Police Report, Gov’t Ex. 4 at 1-2,
ECF No. 36-3. Merchant noticed all of these signs as she and Raes addressed the issue of towing
Soderman’s car.
Because the officers were still working to address Soderman’s suspended license, the
questions they asked Soderman about drug trafficking did not unlawfully extend the duration of
the traffic stop. Even if the officers’ questions about transporting drugs extended the stop, the
officers had reasonable, articulable suspicion of drug trafficking and asked questions to confirm
or dispel those suspicions, which is permissible under the Fourth Amendment See Berkemer,
468 U.S. at 439.
2.

The seizure and search of the car

Soderman argues Merchant had neither a warrant nor probable cause to seize and search
9

Soderman Appendix D9

!
\

A

J

Case l:18-cf-tf0044-RGE-HCA Document 38 Filed 01/17/19 Page 10 of 14

his car, making the search unlawful. ECF No. 24-1 at 11. The Government puts forth several
reasons the seizure and search of Soderman's car was lawful. EOF No. 32 at 8—11. The Court need
not consider all of the Government’s proffered justifications for the seizure and search, including
the Leon good faith exception, because Merchant’s actions were lawful under the automobile
exception.
“For constitutional purposes, [there is] no difference between on one hand seizing and
holding a car before presenting a probable cause issue to a magistrate and on the other hand
carrying out an immediate search without a warrant. Given probable cause to search, either course
is reasonable under the Fourth Amendment.” Chambers v. Maroney, 399 U.S. 42, 52 (1970).
“■[Wjhen the automobile exception applies, the vehicle need not be immediately searched.”
United States v. Castaneda, 438 F.3d 893,894 (8th Cir. 2006). “[Warrantless searches of vehicles
by state officers have been sustained in cases in which the possibilities of the vehicle’s being
removed or evidence in it destroyed were remote, if not nonexistent.” Cady v. Dombrowski,
413 U.S. 433, 441—42 (1973).
Based on the totality' of circumstances, there was probable cause to search Sodcrman’s car.
“Probable cause is a fluid concept that focuses on ‘the factual and practical considerations
of everyday life on which reasonable and prudent men, not legal technicians, act.’”
United States v. Colbert, 605 F.3d 573, 576 (8th Cir, 2010) (quoting Illinois v. Gates,
462 U.S. 213, 231 (1983)). Soderman’s father told Merchant that Soderman had a history
of drug trafficking. There was a large amount of cash

in

Soderman’s wallet.

Cf. Flora v. S%v. Iowa Narcotics EnFt Task Force, 292 F. Supp. 3d 875, 897 (S.D. Iowa 2018)
(finding officers had probable cause to arrest the defendant because a large amount of cash stowed
in a vehicle indicated drug trafficking). Soderman stated he had used marijuana earlier that day.
Merchant and Raes observed that Soderman had an unkempt appearance and it seemed like he had
10

Soderman Appendix D10

v_

/

*

Case l:18-cirT50044-RGE-HCA Document 38 Filed 01/1W19 Page 11 of 14

not showered recently. They also noticed Soderman had aftermarket wires in the backseat
of his car, possibly indicating the vehicle had been manipulated to store drugs. The car also
contained energy drinks and snacks, suggesting Soderman had not stopped during his journey.
Cf. United States v. Cortez-Palomino, 438 F.3d 910,913 (8th Cir. 2006) (finding probable cause
to search when officers saw large packages wrapped in cellphone in truck and smelled
a masking agent). Soderman was also adamant his car not be impounded locally and was insistent
he travel with his car to Minnesota because he was on his way to visit his terminally ill
stepmother — even though his father told Merchant he did not know Soderman was on his way.
Cf. United States v. Ameling, 328 F.3d 443, 449 (8th Cir. 2003) (“| Apparently false statements
and inconsistent stories were sufficient to give the officers probable cause that the defendants
were involved in criminal conduct.”). Based on these circumstances, a reasonable person could
believe there was a fair probability that contraband could be found in Soderman's car.
See Murillo-Sa/gado, 854 F.3d at 418 .
Merchant’s decision to apply for a warrant does not undermine the existence of probable
cause.* A warrantless search of automobile is lawful when the car is initially seized, or at a later
time. Castaneda, 438 F.3d at 894. That Merchant could articulate her reasons for probable cause
in her affidavit for the warrant application supports the conclusion that the automobile exception
applies. See ECF No. 36-1 at 1-5. Judge Fagan’s approval of Merchant’s warrant application

i
No warrant was actually issued — despite the judge’s probable cause determination. While there
was probable cause to search Soderman’s car and the automobile exception applied, applying for
a warrant was a prudent course of action: “[T]he informed and deliberate determinations of
magistrates empowered to issue warrants... are to be preferred over the hurried actions of
officers.” United States v. Ventresca. 380 U.S. 102, 105-106 (1965) (omission in original)
(quoting Aguilar v. Texas, 378 U.S. 108, 110 (1964)); see also United States v. Goff,
449 F.3d 884, 886 (8th Cir. 2006) (“In light ofthe preference for warrants, we give great deference
to the magistrate judge’s determination of probable cause.”).

11

Soderman Appendix D11

/
Case l:18-cr-O0044-RGE-HCA Document 38 Filed 01/17/19 Page 12 of 14

further demonstrates there was probable cause to search Soderman’s car.
B.

Fifth Amendment: Questioning During Traffic Stop

Finally, Soderman moves to suppress the statements he made during the traffic stop.
Soderman argues he was in custody because Raes told him he was detained and because he was
later released, demonstrating his prior custody. EOF No. 24-1 at 10. Soderman asserts all
statements after the “initial questioning for identification and warrants” should be suppressed
because he was not read his Miranda rights. Id. The Government responds Miranda warnings were
not necessary because Soderman was not in custody during this temporary, investigatory stop.
ECFNo. 32 at 11-12.
Miranda warnings are required before custodial interrogations. In general, a suspect is not
iti custody during a routine traffic stop. Berkemer, 468 U S. at 440 (“ISimilar to a Terry stop,
t]he... noncoercive aspect of ordinary traffic stops prompts us to hold that persons
temporarily detained pursuant to such stops are not ‘in custody’ for the purposes of Miranda.”);
United States v. McGauley, 786 F.2d 888,890 (8th Cir. 1986) (“No Miranda warning is necessary
for persons detained for a Terry stop,”).
Roadside questioning “to determine [the detainee’s] identity and to try to obtain
information confirming or dispelling the officer’s suspicions” does not require Miranda warnings.
Berkemer, 468 U.S. at 439. But “[i]f a motorist who has been detained pursuant to a traffic
stop thereafter is subjected to treatment that renders him ‘in custody’ for practical purposes,
he will be entitled to the full panoply of protections prescribed by Miranda.” Id. at 440;
see also United States v. Pelayo-Ruelas, 345 F.3d 589, 593 (8th Cir. 2003) (finding a suspect was
not in custody when asked to step out of his car and comply with a pat down).
The Court must determine if Soderman's freedom to leave was restricted beyond
what is expected during a traffic stop, such that Soderman was in custody. See Mathiason,
12

Soderman Appendix D12

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 13 of 14

429 U.S. at 495; see also Betkemer, 468 U.S. at 436 (“It must be acknowledged at the outset
that a traffic stop significantly curtails the ‘freedom of action’ of the driver ... of the
detained vehicle.”).
Here, Sodetman was not formally arrested. Raes asked Soderman to sit in his patrol car
and Soderman complied. Cf Jones, 269 F.3d at 924 (finding that an officer asking a suspect to sit
in a patrol car was permissible during an investigatory stop). Soderman asked if he was detained
several times throughout his interaction with Raes and Merchant. At one point, Raes responded to
Soderman that he was detained and that he could go to jail if he wanted to go because he was
driving with a suspended license. At another point, Merchant told Soderman he was detained and
could not get his phone back from her until Raes finished writing Soderman’s traffic tickets.
There are distinctions, however, between being detained and being in custody. An officer
may detain an individual during a traffic stop in order to complete the investigation that
necessitated the stop. United States v. Coney, 456 F.3d 850, 857 (8th Cir. 2006) (noting the
“[officer] had the authority to check [defendant’s] license, and [his] van’s registration,
ask [defendant] about his destination and purpose, and request that [defendant] sit inside
the patrol car”). Such traffic stop detentions are temporary, and thus distinct from being in custody,
during which a suspect does not know when he will be able to leave. “The Supreme Court
has analogized roadside questioning during a traffic stop to a Terry slop, which allows an officer
with reasonable suspicion to detain an individual in order to ask *a moderate number of
questions... to try to obtain information confirming or dispelling the officer’s suspicions.”’
United States v. Rodriguez-Arreola, 270 F.3d 611, 617 (8th Cir. 2001) (quoting Betkemer,
468 U.S. at 439).
Although Soderman was detained; he Was not in custody. Soderman’s interaction with the
officers consisted only of being asked questions aimed at confirming or dispelling the officers’
13

Soderman Appendix D13

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 14 of 14

suspicions of criminal activity — first about a suspended license and then about possible drug
trafficking. Throughout this questioning, Soderman was told the end of the interaction was
imminent. Raes told Soderman he would drop him off at a gas station once Raes finished w’riting
his tickets. At another point, Merchant also told Soderman that his car was detained but he was
not, and that Soderman Was free to leave after Raes finished writing his traffic tickets. “At no point
during [the] interval was [Soderman] informed that his detention would not be temporary.”
Berkemer, 468 U.S. at 441-42. Because Soderman was free to leave, he was not in custody.
Miranda warnings were not required. Therefore, introduction of his statements would not violate
his Fifth Amendment rights.
V.

CONCLUSION
Raes and Merchant lawfully extended Soderman’s traffic stop because they had

particularized suspicion of drug trafficking. Merchant had probable cause to search Soderman’s
car and lawfully did so without a warrant. Soderman was not in custody when he was questioned.
For the foregoing reasons, admission at trial of the evidence found in Soderman’s car and the
statements Soderman made during the stop does not violate the Fourth and Fifth Amendments.
IT IS ORDERED that Defendant Chad Alan Soderman’s Motion to Suppress Evidence,
ECF No. 24, is DENIED.
IT IS SO ORDERED.
Dated this 17th day of January', 2019.

JL

lSJJEBKGER
United States District Judge

14

Soderman Appendix D14

*

t

l
APPENDIX E
7-7-18 TROOPER RAES REPORT
ENTERED 12-19-18

t

i

Case 1:18-cr-00044- RG E-HC A Document 36-2 Filed 12/19/18
IOWA INCIDENT REPORT SUPPLEMENTAL
IOWA
STATE
yPATROly

IOWA STATE PATROL - DIST 03
2025 HUNT AVE
COUNCIL BLUFFS, IA 51503
(712) 326-8001

jpgi||pis(

r&M

nanoits
D*i» of This Report
Com Ni/mfccr
07/07/2018
C 2018017739
£ ORI HuraSnr
S COUNCIL BLUFFS POLICE DEPARTMENT - IA078010Q
E Otic el Original Oeeerienca
07/0712018
FftK
Netra ■ last
N SODERHAN
CHAO
f
Ctesrcnce
CtaKfftcsSon
O
Q Unfounded Q EjrtepSonalty Cleared [vjaetrsd bj Attest

Courty in which Inddenl Occurred
POTTAWATTAIWE * 78

Type rri Odense
DRUG TRAFFICKING
MkWte

Sultbt

InvesrijaflvK Staa*
0 Open OCtoMsi □ SawnW

Narrative

tortwer

™ l ml smlhma im aeaae ana sailed tny emoseacy SgMe te

I

perform a traffic sap. The vehicle putted over to the right shoulder.
t

:
i
{

was

of the veWcte. 1 also observed multiple snadtis that were in me vehicle. I observed two big hags In the back seat of the vehicle.

SSSSSSSSSlf'
mi fnM rwrmcrtv hecause at al the money that v*8S In K. t ashed how much money he had In his waflel He said that haw much monay he had In

ilSSSSisiH
tome.

™rth ?*£*.

<K®5/2018. He then ested molt I didnl care about his payments.

gSS&^^hssttsssssa^sssaz.
iweuMW)
^ht ha^S

eolmtom WmTdkl neiaiBat (o eee aeyayeye peymente see "1

iTshataoee (Minneeota) TWa wmM be 365 .ate earay tarn eta leeallen ana awrortnate* 5 ham and

eiar=*»sisrsgsaay.tgs^sii55S^^J^^}a^^,gglw..

■X5y«^53!S^“S:SS2SrSKSS^JSa^.^K!!a5^5^J55?Sa-<w~ w

£rx,”.srr.re;«r^^^^

Pffetat&i: IOWA STATE WTROL * BSt 03

m*

t<*3

Soderman Appendix E1

r<wm#;

asm.

f

Case l:18-cr-00044-RGE-HCA Document 36-2 Filed 12/19/18 Page 2 of 3
because I saw the bags taking up the whole back seat of the vehicle. He said that he works apartment makilenance. He stuttered white saying
that He also again began to bream heavy and move his hands more then he was previously whie taking. He said that he brought the toots
because his dad always had jobs tor Iwn to do. he then began talking about Ws driver's lloense status again. He got a text or his phone and
quickly told me that tt was hsi gkltrisnd. He then ashed if he could take a self* with me to send to his gktfifend. I explained I'd rather have him
take a picture of my car rather than me. He said drat he understands, and he wouldn't want Ids picture taken either. He also than randomly told
me that his girtftiend was mad that he going to Minnesota because she thought that he was going to steep with a lot of girts.

He began arguarg with me about not letting me tow his vehicle himself. He said that there Is no reason that cant taw it himself. I was going to
make a phone ca* and he wanted to exit the car and listen to my phone cal He then asked if he was being detained. Due to him becoming more
argumeniafive wift ma. I then decided to check him for weapons. He sad fiat he would rather I didn’t check him far weapons. But for officer
safety reasons t checked him for weapons. No weapons were faceted on his person. After getting back kilo my patrol vehkte he said that ho still
dam understand Ns license status. He now said that he maybe missed one or two payments over the yesis. He now gave another option of
what to do w» the vehtete. He wanted to tow It to the Minnesota border, after i just explained how tar away Minnesota was horn our location. He
then said he was not trying to con me in anyway. He told me that his Dad and Sue would come down to our location right now and that * wouldn't
be a problem. He now was saying that his parents would get in there car this very, second and would come down there, without evsr tatting to
them tost
WHBe I was out of the vehicle he called Sue and told her that Her and his dad had to cotne to Iowa right now to pick him up. He was talking very
fast end kept repeating, right now. He also tailed a tow buck on his own, wilhout us rerpjesfing trim to. He catted and asked for a tow truck and
was askbg how long it took. Ha drought he was on Intrastate 35. He asked for the tow truck driver to take him to the border of Iowa and
Mmesota, which the tow truck driver informed him watad net be possible.

Officer Merchant #760 arrived on scene to assist. He told Officer Merchant he called his own tow truck already. He was talking to them as we
came back to the vehicle. Ho again mentioned that his Dad's wife has brain and lung career. He then told Officer Merchant that she is the one
coming to pick up the vehicle, even though he told me before that mat she was dying. He said that she got out oftheHosplal twee days ago. He
now said foat she had a respiratory-Mn0'. While saying that he was stuttering and paused. He also said sha had a staff infection. He said they
were on the way right now to come pick up the vehicle. Officer Merchant spoke w»r his Dad, Terry. I told him mat we might want to tow it
because he wouldn't be safe sitting on the shoulder. I said he cant parit it on the grass because iff the posstoffly of fires as wefi. He said dial we
were in Wfinnesote. not Colorado I corrected him and reminded him that we were in Iowa. Ha now just wanted to wail with the vehicle and tow it
After saying his and telling him we cant do that because we wotid get 911 cate on him. he now wanted to tovr it himself. Instead of wanting H
towed to the border, he now wanted to tow it himself to the gas station. He asked to go up to his vehicle for a drink. I told him I would go grab one
for trim. He offered me a Mountain Dew. He admitted to having dry mouth snd saying that he was thirsty.

t was talking to Officer Menffiarrt outside of the uehicte. Office- Merchant told me that his dad did not know that ha was coming up to Mmnesota
today. Whie speaking wiBi Officer Merchant he was looking at us in the mirror. Officer Merchant began taking to him again. He said that he was
insulted by al of Ws. Officer Merchant began tatting to him and he began rubbing my dash. He also leaned forward aid became defensive. He
(ten told us that al ha was doing was going to visit his Grandma, but then corrected II to going to visit his stepmom.

He once again brought up his driver's license status. Now he said that he didn't have this trip planned with his dad to come up. He said that his
dad said that 'it didn't took good* for his stepmom. He said that he had to finish up work and then he want and that he was Mitt wearing his work
domes from when he last worked. He became very argumentative w»h Officer Merchant and talked awe her multipie times. Officer Merchant
asked for consent to search the very arid quickly, and louefiy he .said no. He then tried to change the subject and bring up his license again. Ho
now said that he ffiought he was going to throw up. I observed a Marijuana teat tattooed on his bask. Officer Merchant again asked if there was
anything in the car and he said that hie parents would not approve of that He said that he denied the warrant because he has personal Rems in
there, Including sex toys, tie also randomly thanks me for gening him the mountain dew Pom his car. He said that he wants to have his car towed
to a gas station. I asked what he would then do if they don't him there. He said that would get mowed to a different gas Matron, I once again
mentioned that he has a lot of monay in his waSat and then he told me he also tied a lot of money thatwas in his vehicle too because he was
paid $50 an hour.
I stepped outside of the vehiefe and spoke with Officer Merchant
Once again, he said that he was Just trying to get to his stepmom and see her before she wasn't here anymore. Officer Merchant was talking to
him and he said that he wanted to step outside and have a cigarette. Officer Merchant then told hbn that there to a lot of things that a pointing to
something that we dont normally run into. He said foal he would agree with trial He became defensive and became agitated and said he wanted
to go see his Tucking’ stepmom. He was becoming mote agitated and put his head bads on his seat and closed his eyes. Officer Kaita Merchant
said that she was going to cal) her Sergeant He said fiat he doesn't blame tier that she is just doing her job. He said that if we towed and got a
search warrant and we rfidnl even find anything then maybe he wmidnt have to pay for the tow. She asked if thats what he wanted to do and Ire
quickly changed ft and dldnT warn to do that anymore. He said that we should setae tris car and get the search warrant and he would cry on tie
side of the road.
As soon as Officer Merchant dosed the door and he said that what she was doing is Illegal. He admitted to her being able to see that She is
upset. He now edmftted to smoking Marijuana in the vehida. He admitted to smoking Marijuana in the vehicle and asked how he woutd "bear
that He said that the dog would smefi it and that he would feel so utterly helpless. He said he gave up hard drugs, but not Marijuana.

Officer Merchant told torn that she was going to setae the vehicle and apply for a search warrant I issued him a citation for driving without e valid
driver's license and for speeding. He talked ovsr mo as I was trying to explain tire citations. He asked rmitiple times to get stuff out of tare vehicle.
He wanted a case number for hte incident Officer Merchant vreni to go Write it down and I told him he could now smoke his cigarette. Theal
action tow truck that he called showed up w the scene, Wfe informed him foal we did not call him and that we had a different tow truck en route.
He was released and watted eastbound along Interstate 80.
Arrow tew truck arrived an the scene. The doors, hood and trunk all had evidence tags placed over them and were initialed by Officer Merchant
They took possession of the vehicle.

fiimai:

lorm sms Mitral.-DtSTn

Page

2W3

Soderman Appendix E2

Fonatk

QQ0Q47
ansoims

t

Case i:18-cr-00044-RGE-HCA Document 36-2 Filed 12/19/18 Page 3 of 3

Later to the day I was contacted by Officer Merchant oral she girt a search warrant tor the wteicte. I was told that narcotics and a gun were
located Inside of tee vehicle. At around 14:20 hours I was in It* area of Undeiwood. I knew teat tee male was last waking easteound on
interstate eo. I located him at tee Mow in Underwood. I waited for backup ftom a Pottawattamie County Sheriff* depot;. I made contact arite the
mate end placed him under wrest at around 1438. He had nocks In his pocket and said that some use the rocks he found for smoking bid not
tern Ha new laid a deputy tea he was self employed. I read him Ns Miranda wamrng al 14:44 hours. I transported Nm to the Pottawattamie
Count; JaB. He told me that be ordered an User and that the driver was dose. Becuase of this, I let him answer Ns phone and slowed Mm to ta*
the driver that she no longer had to wait far him. He asked what her probable cause tor the search warrant was and I explained Brat 8 wll be on
tee search warrant, even though Officer Merchant had ahead; explained teat to Mm. He teen asked if Officer Merchant was sleeping with tee
Judge. I told him teat wasn't an appropriate question. He teen said teat It Is a vald question. He then talked to his brother on his phone. He told
Mm teat he was being arrested tor "gurrs and drags". He told me if he goes to jai today, there is nothing that he can do (about taking wito
investigators). He ihan randomly said 1 donft run drags" and I told him I didn’t say he did. He said teat he was just saying. He a tea said teat
"whatever happened today' he sold that hs works everyday and that he works hard. He said he is so tom right now, I asked him about what arid
he said teat he couldn't answer teat question. He also asked If we had been watching him al day.

we arrived at tea Pottawattamie County Jail He was booked into tee Pottawattamie County Ja8 and charged by tee Council Blufis Police
Department

. ComplainanVReporting Party
O [Signature)

F
F

I
C

E Reporting Officer
R

RAESM
Assisting Officer l Adminisbative Reviewer

Badge Number
120
Badge Number

Supervisor

Bedge Number

incHei* Assigned ta

OFFICER MERCHANT CBPD

PitoMAt Kfflft STATE flHROL - DtST»

P*#e

3«f3

Soderman Appendix E3

Ferr*#:

W*

* )

i

)

APPENDIX F
7-7-18 BACKUP OFFICER MERCHANT REPORT
ENTERED 12-19-18

f'

t

»

/
Case l:18-cr~00044-RGE-HCA Document 36-3 Filed 12/19/18 P
IOWA INCIDENT REPORT SUPPLEMENTAL
COUNCIL BLUFFS POUCE DEPT
227 S STM ST
COUNCIL BLUFFS, (A SI 503
(712) 328-4715

Tft-tA1

rtssassim

c
A
S
E
I
N
¥

0

County tn wftjcfi fnsiitom OOcurfefi
POmWATTAMJE - 78

Dots ormts ftapoa
CfScWurnBer
18-92883-5
7/7/2018
OR? NtfTtoetr
COUNCIL BLUFFS POUCE DEPARTMENT - 1*0730100
Date of Original Ocosfrenee
7/7/201S
Ftei
Nsm»-UsS
SODERMAN
CHAO
Ciatrwce Ctassricstion
j~1 Unfounded

Q £xcBp&jniijty Cleared

Tyf» of Offense
INTEHTTOO&TOBUTg

urn*

Suffer

ALAN
frivstegat** Status

jylqeerpd fey Arrest

O Open Sctaeed Q Susptmded

Narratlvo
On July 7(h, 20181 was working for the City of Council BUrffs Police Department and was assigned to the patrol division. At approximately 0745 f
was oomsded by Trooper Matthew RAES (ISP #120) who stated he had a vetiSSe stopped on 180 68 at lire 6 mBe niarlter end was requesting
assislanco, l responded to Ms location and ha briefed me on the stop.
Tr. RAGS stated he stopped the suspect vehicle (CO 44SWQO) for a speed violation and made contact with the operator identified as Chad
SODERMAN HMI). Tr, RAES stated as he approached the vehicle SODERMAN already had his paperwork sicking put the window for
the Troops’. FrortHnpramtog and experience I know that subjects attempting 10 minimize police contact wN often times have their
documentation easily accessible. This is done to shorten (heir con)set and detract attenflon from themselves by appearing to be lew abiding. Tr.
RAES also stated SOOERMAM’S hand was shaking as handed him Ms paperwork. Tr. RAES stated that he asked SOOGRMAN to exS his
vehide and cone sfi Into the front seal of his cruiser while be ran Ms fnfofmstjan. He slated that SODERMAN became InereMfflgfy nervous, but
did come sit m his cruiser.
Tr. RAES continued conversation with SOOERMAN end asked ter his license. VWien removing Ms Icense Tr. RAES noted a large sum of cash hr
SOOERMAWS wxlist. From my training and experience I am aware (hat those having large sums of cash are often involved fii Bdt drug sales.
Tr. RAES ran SODERMAN’S license and found he was suspended out of Colorado. He notified SODERMAN of the suspension and he sfaled
SODERMAIYS demeanor efrangsd drastically. He stated his cpoech urns rapid, he was more animated and It became dear that SOOERMAN’S
level of nervousness was Increasing.
Tr. RAES then ssked SODERMAN where he was going. SOOERMAN stated he was traveling from Ms home In Colorado to Minnesota for e
"quick trip' te visit his father. He stated his slep-molhcr was H end had jusl been released from the hospital so lie was going to visit In the rear of
SODERMAWs csr were 2 large hockey duffel bags which was inconsistent wiih a quick trip. The amount of luggage able to be contained in both
begs would appear to be for an extended vb)I or move. From my training and experience I also know that Ed! drugs are commonly transported
In duffel bags for ease of movement and concealment. Tr. RAES also stated feat he asked SODERMAN if there wes any Begat Boms In flio
vehicle. SODERMAN admkted feat he had marijuana In the vehicle several weeks prior as he Is a marijuana user.
After speaking with Tr. RAES I asked If I coukJ speak wilts SODERMAN to which he agreed. SODERMAN was seated tn the front passenger seat
of Tr. RAES's cruiser at fee time. I made contact wife SODERMAN and he immediately was displaying signs of nervousness beyond fee typical
realm in which I see during s car stop. He was breathing rapidly ES hia chest was vfeipiy rising and teltrftg. He began speaking and his speech
was rapid and -often times off topic. His appearance was dfabeveted and dirty as wei. From my training and experience I know 8us fe common
among subjects transporting illegal narcotics es they waste-no time stopping or changing cloths*.
I asked SOOERMAN what happened and he explained he dkffll realize Ms license was suspended. I asked what his plan was and be slated he
had Ms father coming from Minnesota to pkdc ftlrh up and he was contacting a tow company to tow hfe car from Coundl Bluffs to Minnesota. He
continued to say thaf he was having fee car towed and repealed himself m’jiiipfe times. It was clear his concern was keeping fee veMtie In his
possession regardless of ft® cost to low I! across severs! states; His concern with fee vehicle was also an indication feat there was something oif
value to him wiihlii fha vehiefe)Tf. RAES suggested feat he have a towed to the nearest gas station so It vns oft fee highway end would be far less of a tow tee. SODERMAN
stated feat he would rather have 8 tarred to the Sate tins and have his father and step-mother meet him. I stated to SOOERMAN feat I thought
his step-mother was ill and had recently teft the hospital. He staled feat she was, bu! was coming wife his ’father to pick SODERMAN up. This
also did not make sense as it SODERMAN had made he was going to visit her due to her poor health.
While specking with SOOERMAN Ws faiher. Terry, cased. I offered te speak with TERRY to give hfs directions end explain fee situation.
SOOERMAN handed me his phene wffiing and I spoke wife TERRY. I introduced myseif to TERRY and asked if SODERM AN was Ms son He
stated feat he was. But didn't know what was going on. t stated to him feat SODEMAN had been slopped and there was a suspicion he was
transporting Begat narcotics, 1 asked TERRY tf SOOERMAN had a history of transporting drugs and he responded. "Well, not recenuy I then
asked TERRY if he knew feat SODERMAN was coming out lo visit. He slated he had spoken to SODERMAN about 3 days earlier and
SODERMAN stated he may be coming to vfsff.but dWrtYsay when. He sated toey made no Mans and tie had no idea SODERMAN was on Ms
way to TERRY’S house. The discrepancy in SODERMAN and TERRY’S stories ted me to believe feat SODERMAN was not being truthful aboui
hie actual destination.
<
After speaking with TERRY I returned to SODERMAN end explained there was eonoem he was pocsSjly transporting narcotics, I asked ft there
was any IBsgat items In the vehicle and he stated there was not Every time I brought up drugs to SODERMAN he immediately changed the
subject and began talking about his license suspension. From my training and experience 1 knew this is 8 tactic used by suspsds to deter law
enforcement from asking further questions aboui topics feat am uncomfortable, SODERMAN than asked for his phone back. I stated to
SODERMAN feat he was now being detained and could not have his phone at that time until (had completed my Investigation.
prwea At: council eurffs roues deft

P»se

1 of 2

Soderman Appendix F1

Feffilih

$83

T

t

t

)
/
Case l:18-cW)0044-RGE-HCA Document 36-3 Filed 12/19/18 Page 2 of 4
I returned to SODERMAN'S veWde and looked ttirouah (he windows to see what I could observe in plain view. On Ihe front passenger seat there
was a six pack of Mountain Dew energy dinks. From my training and experience I know that subjects transporting Illegal narcotics often times
have high caffelnated energy drinks hr order to keep them awake during long drtves. I also observed a package on the passenger floorboard
which contained a loat of bread and other snacks. This is also often common for drivers transporting to have food in Ittor vehicle to lessen too
amount of 'stop* time. Lastly. I observed 2 aflermsrket wires running on the floor of the driver's ewe. After market wires are often associated with
vehicle hides used to conceal Bfieit drugs during transport
I returned to SOOERMAN and stated l was now even more concerned after my observations of the inside of the vehicle that he may be
transporting drugs. He stated that he was a drug user atone point, but had been ‘dean* for years. Whie speaking with SODERMAN he was
moving around in the bent seat, scratching his head, nrbbfog Ids neck and fidgeting. From my training and experience I know that often times
subjects who are experiencing unusually high levels of anxiety will unconsciously move, stretch or pace in order to relieve their stress levels. 1
asked SODERMAN where he obtained the large amount of cash in his possession. From my training and experience l know that it is common for
subjects transporting narcotics to make mutipte "drops* on their trip In which payment in made in large sums of cash.
SODERMAN stated he worked for a property management company and made (50.00 hr. I asked what he did for the company and he stated he
fixed up the rental properties tor new renters. I found this hourly wage to be inconsistent with my knowledge of what the average employee
makes in this line of work. I stated my concern to SODERMAN and ha then changed Ms story and stated tie owned e company, but worked for a
rental company. I asked SODERMAN If he had a business card for me company and he elated ho did not SODERMAN asked multiple times to
smoke a cigarette as well. From my training and experience I know this behavior ts Mteatlve of those subfects experiencing high levels of
anxiety. Throughout my Interaction with SODERMAN he became increasing nervous and agisted.
I then stated to SODERMAN diet 1 would like ts make sure there was nothing Hegel In his vehicle and asked for his consent to search. He stated
he did not consent to a search and dkfivt know why I would be asking. He steted he was just driving to see his step-mother. He stated he left
work last night and was how driving to Minnesota. He stated he hadn't changed from work the previous day. II was ctesr from Ns unkempt
appearance and body odor that he had not charged or showered in some time. This also did not make sense to me because according to
SODERMAN he had all night and this morning to shower or change hts clothes and had not From my training and experience I know that those
bansporfing narcotics often times try to lessen thotr travel time by staying In the same clothing and not stopping for steep, food or showers.
1 steted to SODERMAN that l believed I had enough to seize his vehicle and obtains search warrant I wanted to provide him one last
opportunity to consent to a search go that his vehicle would not be impounded and his sick step-mother would not have to travel a great distance
to come pick him up. SODERMAN Stic refused a consent search. Hold SODERMAN he was free to go after being issued several traffic OtaSons
byTr. RAES.
Based on the suspicious activity, the unusual behavior, the nervousness of SODERMAN. the inconsistent stories, his admission of recent drug
use. hfc father's statements arte the signs consistent with transportation of lKcit drugs I befieved there was probable cause to seize ihe vehicle
and oppiy fo- a search warrant. As a result I ceBed Arrow Towfog who responded to my locafion. The vehicle was secured and sealed with
evidence tape for integrity and towed to Anowts impound lot.
I then applied for a search warrant for toe vehicle, a green 2002 Saturn SL2 bearteg Colorado Registration 445WDO (V1N 1G82K52752Z205542)
, which was present to The Honorable Judge FAGAN. The search warrant was approved and was executed at approximately 1215 pm in the
Arrow Towing impound garage.
During too search of toe vehicle a number of illegal Items were located in the rear trunk of too vehtete. The items rnduded epprowmatety 1.4
pound of crystal metharmphetemlne. a Keltec 9mm hand gun with 3 loaded magazines, over a pound ot marijuana. 20+ watches individually
packages and a mufiitude of other drag paraphernalia items.
After executing the warrant 1 left a copy ot ihe inventory sheet and warrant in the vehicle. The item* seized were transported back to toe station
where they were pleoed into evidence. A short time later I was notified by Tr. RAES ttmt he had located SODERMAN on 180 Based on the
evidence located in toe vehicle I requested Tr. RAES arrest SODERMAN end transport him fo Pottawattamie Cotarly Corrections. I contacted Sgt
. RADFORD who slated he would have a member of VICE speak with SODERMAN on Monday IF he was witling to talk about the teddenL
i responded to Corrections and processed SODERMAN where he was held with No Bond. I seized $3417.00 tn cash from Ms wallet as wen as his
cel phone. The money was counted by Sgl Jil KNOTEK as well. These Items were filter entered into evidence.
Lastly. Arrow Towing was contacted and told SODERMAN'S vehicle could be released from thepoHoe hold.
EOR

O
F
F
I
C
E
R

CompINnantrRepcianc Party
(Skrnaturo)

Badge Number

Reportng Officer
MERCHANT KAILA

780

Aaeieeng Odreer/ Admkthtmtiva Reviawar

Badge Number

Supan^sor

Badge Number

KNOTEK JILUAN

708

bidden! Auigned to:

Pitted At: COUNCIL BLUFFS POLICE OCPT

Pige

2cfj

Soderman Appendix F2

forraf:

oooqgi

tt-029U1

